XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7753
Facsimile: (916) 324-2960
E-Mail: David.Eldridge@doj.ca.gov

September 21, 2020
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Rundle v. Davis, Warden
Case No. 20-5617, Capital Case
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 1, 2020. The
response to the petition is currently due on October 8, 2020. Pursuant to Rule 30.4, respondent
respectfully requests that the time for filing a response to the petition be extended by thirty days,
up to and including November 9, 2020. An extension of time would better enable preparation of
a response that respondent believes would be most helpful to the Court. Counsel for petitioner
does not oppose the extension request.
Sincerely,

David Andrew Eldridge
DAVID ANDREW ELDRIDGE
Deputy Attorney General
For
DAE:
SA2020303288
34404312.docx

XAVIER BECERRA
Attorney General

